               Department of Veterans Affairs
               Office of Inspector General


                   Office of Healthcare Inspections

Report No. 13-00026-24




   Community Based Outpatient 

           Clinic Reviews 

                  at 

 James H. Quillen VA Medical Center 

        Mountain Home, TN 





December 5, 2013

                         Washington, DC 20420
                     Why We Did This Review
The VA OIG is undertaking a systematic review of the VHA’s CBOCs to assess
whether CBOCs are operated in a manner that provides veterans with
consistent, safe, high-quality health care.

The Veterans’ Health Care Eligibility Reform Act of 1996 was enacted to
equip VA with ways to provide veterans with medically needed care in a
more equitable and cost-effective manner. As a result, VHA expanded the
Ambulatory and Primary Care Services to include CBOCs located throughout
the United States. CBOCs were established to provide more convenient
access to care for currently enrolled users and to improve access opportunities
within existing resources for eligible veterans not currently served.

Veterans are required to receive one standard of care at all VHA health care
facilities. Care at CBOCs needs to be consistent, safe, and of high quality,
regardless of model (VA-staffed or contract). CBOCs are expected to comply
with all relevant VA policies and procedures, including those related to quality,
patient safety, and performance.

 To Report Suspected Wrongdoing in VA Programs and Operations
                     Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
  (Hotline Information: http://www.va.gov/oig/hotline/default.asp)
                                                            CBOC Reviews at James H. Quillen VAMC



                                            Glossary 

             C&P      credentialing and privileging
             CBOC     community based outpatient clinic
             CDC      Centers for Disease Control and Prevention
             EHR      electronic health record
             EOC      environment of care
             FPPE     Focused Professional Practice Evaluation
             FY       fiscal year
             MH       Mental Health
             NC       noncompliant
             NCP      National Center for Health Promotion and Disease Prevention
             OIG      Office of Inspector General
             VAMC     VA Medical Center
             VHA      Veterans Health Administration
             VISN     Veterans Integrated Service Network
             WH       women’s health




VA OIG Office of Healthcare Inspections
                                                                             CBOC Reviews at James H. Quillen VAMC



                                            Table of Contents 

                                                                                                                            Page 

Executive Summary ...................................................................................................              i


Objectives and Scope ................................................................................................             1

  Objectives ...............................................................................................................      1

  Scope and Methodology .........................................................................................                 1


CBOC Profiles ............................................................................................................        3


WH and Vaccination EHR Reviews – Results and Recommendations..................                                                    4

  WH..........................................................................................................................    4

  Vaccinations ...........................................................................................................        5


Onsite Reviews – Results and Recommendations..................................................                                    6

  CBOC Characteristics .............................................................................................              6

  C&P ........................................................................................................................    7

  EOC and Emergency Management ........................................................................                           8


Appendixes
  A. VISN 9 Director Comments ...............................................................................                    11

  B. James H. Quillen VAMC Director Comments ....................................................                                12

  C. OIG Contact and Staff Acknowledgments .........................................................                             15
	
  D. Report Distribution .............................................................................................           16
	




VA OIG Office of Healthcare Inspections
                                                            CBOC Reviews at James H. Quillen VAMC



                                Executive Summary 

Purpose: We evaluated select activities to assess whether the CBOCs operated in a
manner that provides veterans with consistent, safe, high-quality health care.

We conducted an            onsite   inspection   of   the     CBOCs     during   the   week    of
September 23, 2013.

The review covered the following topic areas:

   WH

   Vaccinations

   C&P

   EOC

   Emergency Management

For the WH and vaccinations topics, EHR reviews were performed for patients who
were randomly selected from all CBOCs assigned to the respective parent facilities.
The C&P, EOC, and emergency management onsite inspections were only conducted
at the randomly selected CBOCs (see Table 1).

    VISN        Facility                   CBOC Name                 Location
                  James H. Quillen         Morristown                Morristown, TN
       9
                        VAMC               Rogersville               Rogersville, TN
                                     Table 1. Sites Inspected

Review Results: We made recommendations in two review areas (WH and EOC).

Recommendations:       The VISN and Facility Directors, in conjunction with the
respective CBOC managers, should take appropriate actions to:

	 Ensure that patients with cervical cancer screening results are notified of results
   within the defined timeframe and that notification is documented in the EHR.

	 Ensure the Morristown CBOC installs signage to identify the location of fire
   extinguishers.

	 Ensure the Rogersville CBOC positions examination tables to provide for patient
   privacy.




VA OIG Office of Healthcare Inspections                                                        i
                                                 CBOC Reviews at James H. Quillen VAMC


Comments
The VISN and Facility Directors agreed with the CBOC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes A-B,
pages 11–14, for the full text of the Directors’ comments.) We will follow up on the
planned actions until they are completed.




                                                 JOHN D. DAIGH, JR., M.D. 

                                                Assistant Inspector General for 

                                                    Healthcare Inspections





VA OIG Office of Healthcare Inspections                                             ii
                                                                  CBOC Reviews at James H. Quillen VAMC



                                  Objectives and Scope 

Objectives
	 Evaluate whether CBOCs comply with selected VHA requirements regarding the
   provision of cervical cancer screening, results reporting, and WH liaisons.
	 Evaluate whether CBOCs properly provided selected vaccinations to veterans
   according to CDC guidelines and VHA recommendations.
	 Determine whether CBOC providers are appropriately credentialed and privileged in
   accordance with VHA Handbook 1100.19.1
	 Determine whether CBOCs are in compliance with standards of operations
   according to VHA policy in the areas of environmental safety and emergency
   planning.2

Scope and Methodology
Scope

We reviewed selected clinical and administrative activities to evaluate compliance with
requirements related to patient care quality and the EOC. In performing the reviews, we
assessed clinical and administrative records as well as completed onsite inspections at
randomly selected sites. Additionally, we interviewed managers and employees. The
review covered the following five activities:

      	   WH

      	   Vaccinations

      	   C&P

      	   EOC

      	   Emergency Management

Methodology

To evaluate the quality of care provided to veterans at CBOCs, we conducted EHR
reviews for the WH and vaccinations topic areas. For WH, the EHR reviews consisted
of a random sample of 50 women veterans (23–64 years of age). For vaccinations, the
EHR reviews consisted of random samples of 75 veterans (all ages) and 75 additional
veterans (65 and older), unless fewer patients were available, for the tetanus and



1
    VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.

2
    VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004. 



VA OIG Office of Healthcare Inspections                                                                1
                                                                     CBOC Reviews at James H. Quillen VAMC


pneumococcal reviews, respectively. The study populations consisted of patients from
all CBOCs assigned to the parent facility.3

The C&P, EOC, and emergency management onsite inspections were only conducted
at the randomly selected CBOCs. Two CBOCs were randomly selected from the
56 sampled parent facilities, with sampling probabilities proportional to the numbers of
CBOCs eligible to be inspected within each of the parent facilities.4

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




3
    Includes all CBOCs in operation before October 1, 2011.

4
    Includes 96 CBOCs in operation before October 1, 2011, that had 500 or more unique enrollees.



VA OIG Office of Healthcare Inspections                                                                 2
                                                                                                              CBOC Reviews at James H. Quillen VAMC



                                                              CBOC Profiles 

To evaluate the quality of care provided to veterans at CBOCs, we designed reviews with an EHR component to capture data for
patients enrolled at all of the CBOCs under the parent facility’s oversight.5 The table below provides information relative to each
of the CBOCs under the oversight of the respective parent facility.

                                                                                                     Uniques,             Visits,
VISN            Parent Facility                    CBOC Name                    Locality6                                                CBOC Size8
                                                                                                     FY 20127            FY 20127
                                                       Bristol
                                                    (Bristol, VA)
                                                                                   Rural                3,429             14,927           Mid-size
                                                     Knoxville
                                                   (Knoxville, TN)
                                                                                  Urban                16,299             114,166         Very Large
               James H. Quillen                     Morristown
    9                                             (Morristown, TN)
                                                                                  Urban                 2,304             10,133           Mid-Size
                   VAMC
                                                      Norton
                                                    (Norton, VA)
                                                                                   Rural                2,209             14,606           Mid-Size
                                                   Rogersville
                                                 (Rogersville, TN)
                                                                                   Rural                1,115              5,462             Small
                                                               Table 2. CBOC Profiles




5
  Includes all CBOCs in operation before October 1, 2011.

6
  http://vaww.pssg.med.va.gov/

7
  http://vssc.med.va.gov

8
   Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (>10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (<1,500). 



VA OIG Office of Healthcare Inspections                                                                                                                 3
                                                                   CBOC Reviews at James H. Quillen VAMC



                     WH and Vaccination EHR Reviews 

                      Results and Recommendations 

WH
Cervical cancer is the second most common cancer in women worldwide.9 Each year,
approximately 12,000 women in the United States are diagnosed with cervical cancer.10
The first step of care is screening women for cervical cancer with the Papanicolaou test
or “Pap” test. With timely screening, diagnosis, notification, and treatment, the cancer is
highly preventable and associated with long survival and good quality of life.

VHA policy outlines specific requirements that must be met by facilities that provide
services for women veterans.11 We reviewed EHRs, meeting minutes and other
relevant documents, and interviewed key WH employees. Table 3 shows the areas
reviewed for this topic. The review element marked as NC needed improvement.
Details regarding the finding follow the table.

             NC                                       Areas Reviewed
                               Cervical cancer screening results were entered into the
                               patient’s EHR.
                               The ordering VHA provider or surrogate was notified of results
                               within the defined timeframe.
              X                Patients were notified of results within the defined timeframe.
                               Each CBOC has an appointed WH Liaison.
                               There is evidence that the CBOC has processes in place to
                               ensure that WH care needs are addressed.
                                                 Table 3. WH

There were 26 patients who received a cervical cancer screening at the
James H. Quillen VAMC’s CBOCs.

Patient Notification of Normal Cervical Cancer Screening Results. We reviewed
26 EHRs of patients who had normal cervical cancer screening results and determined
that 3 patients were not notified of results within the required 14 days from the date the
pathology report became available.




9
   World Health Organization, Comprehensive Cervical Cancer Prevention and Control: A Healthier Future for 

Girls and Women, Retrieved (4/25/2013): http://www.who.int/reproductivehealth/topics/cancers/en/index.html.

10
   U.S. Cancer Statistics Working Group, United States Cancer Statistics: 1999-2008 Incidence and Mortality Web-

based report.

11
   VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010. 



VA OIG Office of Healthcare Inspections                                                                         4
                                                                   CBOC Reviews at James H. Quillen VAMC


Recommendation

1. We recommended that managers ensure that patients are notified of cervical cancer
screening results within the defined timeframe and that notification is documented in the
EHR.

Vaccinations
The VHA NCP was established in 1995. The NCP establishes and monitors the clinical
preventive services offered to veterans, which includes the administration of vaccines.12
The NCP provides best practices guidance on the administration of vaccines for
veterans. The CDC states that although vaccine-preventable disease levels are at or
near record lows, many adults are under-immunized, missing opportunities to protect
themselves against tetanus and pneumococcal diseases.

Adults should receive a tetanus vaccine every 10 years. At the age of 65, individuals
who have never had a pneumococcal vaccination should receive one. For individuals
65 and older who have received a prior pneumococcal vaccination, one-time
revaccination is recommended if they were vaccinated 5 or more years previously and
were less than 65 years of age at the time of the first vaccination.

We reviewed documentation of selected vaccine administrations and interviewed key
personnel. Table 4 shows the areas reviewed for this topic.

          NC                                      Areas Reviewed
                      Staff screened patients for the tetanus vaccination.
                      Staff administered the tetanus vaccine when indicated.
                      Staff screened patients for the pneumococcal vaccination.
                      Staff administered the pneumococcal vaccine when indicated.
                      Staff properly documented vaccine administration.
                      Managers developed a prioritization plan for the potential occurrence of
                      vaccine shortages.
                                             Table 4. Vaccinations

Generally the CBOCs assigned to the parent facility were compliant with the review
areas; therefore, we made no recommendations.




12
     VHA Handbook 1120.05, Coordination and Development of Clinical Preventive Services, October 13, 2009.


VA OIG Office of Healthcare Inspections                                                                      5
                                                                   CBOC Reviews at James H. Quillen VAMC



                                    Onsite Reviews 

                            Results and Recommendations 

 CBOC Characteristics
 We formulated a list of CBOC characteristics that includes identifiers and descriptive
 information for the randomly selected CBOCs (see Table 5).

                                                Morristown                         Rogersville

     VISN                                             9                                  9

     Parent Facility                       James H. Quillen VAMC               James H. Quillen VAMC
                                              Clinical Pharmacist
                                        Licensed Clinical Social Worker
     Types of Providers                       Physician Assistant              Primary Care Physician
                                               Nurse Practitioner
                                            Primary Care Physician
     Number of MH Uniques, FY 2012                   283                                 67

     Number of MH Visits, FY 2012                   1,429                               327

     MH Services Onsite                              Yes                                Yes

     Specialty Care Services Onsite                  WH                                 WH
     Ancillary Services Provided              Electrocardiogram                   Electrocardiogram
     Onsite                                      Laboratory                          Laboratory
                                                     MH
                                                                                         MH
                                                  MOVE13
     Tele-Health Services                                                              MOVE
                                               Retinal Imaging
                                                                          Care Coordination Home Telehealth
                                      Care Coordination Home Telehealth
                                        Table 5. Characteristics




13
     VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011.


VA OIG Office of Healthcare Inspections                                                                       6
                                                        CBOC Reviews at James H. Quillen VAMC


C&P
We reviewed C&P folders, scopes of practice, meeting minutes, and VetPro information
and interviewed senior managers to determine whether facilities had consistent
processes to ensure that providers complied with applicable requirements as defined by
VHA policy.14 Table 6 shows the areas reviewed for this topic.

           NC                                       Areas Reviewed
                         Each provider’s license was unrestricted.
                                             New Provider
                         Efforts were made to obtain verification of clinical privileges
                         currently or most recently held at other institutions.
                         FPPE was initiated.
                         Timeframe for the FPPE was clearly documented.
                         The FPPE outlined the criteria monitored.
                         The FPPE was implemented on first clinical start day.
                         The FPPE results were reported to the medical staff’s Executive
                         Committee.
                                        Additional New Privilege
                         Prior to the start of a new privilege, criteria for the FPPE were
                         developed.
                         There was evidence that the provider was educated about FPPE
                         prior to its initiation.
                         FPPE results were reported to the medical staff’s Executive
                         Committee.
                                          FPPE for Performance
                         The FPPE included criteria developed for evaluation of the
                         practitioners when issues affecting the provision of safe, high-
                         quality care were identified.
                         A timeframe for the FPPE was clearly documented.
                         There was evidence that the provider was educated about FPPE
                         prior to its initiation.
                         FPPE results were reported to the medical staff’s Executive
                         Committee.
                               Privileges and Scopes of Practice
                         The Service Chief, Credentialing Board, and/or medical staff’s
                         Executive Committee list documents reviewed and the rationale for
                         conclusions reached for granting licensed independent practitioner
                         privileges.
                         Privileges granted to providers were setting, service, and provider
                         specific.


14
     VHA Handbook 1100.19.


VA OIG Office of Healthcare Inspections                                                    7
                                                         CBOC Reviews at James H. Quillen VAMC


         NC                              Areas Reviewed (continued)
                       The determination to continue current privileges was based in part
                       on results of Ongoing Professional Practice Evaluation activities.
                                          Table 6. C&P

Both CBOCs were compliant with the review areas; therefore, we made no
recommendations.

EOC and Emergency Management
EOC

To evaluate the EOC, we inspected patient care areas for cleanliness, safety, infection
control, and general maintenance. We reviewed relevant documents and interviewed
key employees and managers. Table 7 shows the areas reviewed for this topic. The
CBOCs identified as NC needed improvement. Details regarding the findings follow the
table.

        NC                                     Areas Reviewed
                    The CBOC was Americans with Disabilities Act-compliant, including:
                    parking, ramps, door widths, door hardware, restrooms, and
                    counters.
                    The CBOC was well maintained (e.g., ceiling tiles clean and in good
                    repair, walls without holes, etc.).
                    The CBOC was clean (walls, floors, and equipment are clean).
                    Material safety data sheets were readily available to staff.
                    The patient care area was safe.
                    Access to fire alarms and fire extinguishers was unobstructed.
                    Fire extinguishers were visually inspected monthly.
                    Exit signs were visible from any direction.
                    There was evidence of fire drills occurring at least annually.
   Morristown       Fire extinguishers were easily identifiable.
                    There was evidence of an annual fire and safety inspection.
                    There was an alarm system or panic button installed in high-risk
                    areas as identified by the vulnerability risk assessment.
                    The CBOC had a process to identify expired medications.
                    Medications were secured from unauthorized access.
   Rogersville      Privacy was maintained.
                    Patients’ personally identifiable information was secured and
                    protected.
                    Laboratory specimens were transported securely to prevent
                    unauthorized access.
                    Staff used two patient identifiers for blood drawing procedures.
                    Information technology security rules were adhered to.



VA OIG Office of Healthcare Inspections                                                     8
                                                                 CBOC Reviews at James H. Quillen VAMC


         NC                               Areas Reviewed (continued)
                      There was alcohol hand wash or a soap dispenser and sink available
                      in each examination room.
                      Sharps containers were less than 3/4 full.
                      Safety needle devices were available for staff use (e.g., lancets,
                      injection needles, phlebotomy needles).
                      The CBOC was included in facility-wide EOC activities.
                                                Table 7. EOC

Fire Extinguishers. The National Fire Protection Association Standard for Portable Fire
Extinguishers requires identification of fire extinguisher locations when they are
obscured from view.15 The Morristown CBOC had no signage identifying the location of
two fire extinguishers.

Patient Privacy. The Joint Commission requires that patients’ right to privacy be
respected.16 The Rogersville CBOC placed examination tables with the feet facing the
entry door.

Recommendations

2. We recommended that fire extinguisher signage is installed at the Morristown CBOC.

3. We recommended that the facility ensures the exam tables are positioned so that
patient privacy is respected at the Rogersville CBOC.

Emergency Management
VHA policy requires each CBOC to have a local policy or standard operating procedure
defining how medical and MH emergencies are handled.17 Table 8 shows the areas
reviewed for this topic.

      NC                                             Areas Reviewed
                  There was a local medical emergency management plan for this CBOC.
                  The staff articulated the procedural steps of the medical emergency
                  plan.
                  The CBOC had an automated external defibrillator onsite for cardiac
                  emergencies.
                  There was a local MH emergency management plan for this CBOC.
                  The staff articulated the procedural steps of the MH emergency plan.
                                    Table 8. Emergency Management




15
   National Fire Protection Association, Standard for Portable Fire Extinguishers, 10.6.1.3.3.1. 

16
   The Joint Commission Hospital Accreditation Program Manual 2009, Edition, Standard RI.01.01.01 (EP7) 

17
   VHA Handbook 1006.1. 



VA OIG Office of Healthcare Inspections                                                                     9
                                          CBOC Reviews at James H. Quillen VAMC


Both CBOCs were compliant with the review areas; therefore, we made no
recommendations.




VA OIG Office of Healthcare Inspections                                     10
                                                       CBOC Reviews at James H. Quillen VAMC
                                                                                 Appendix A
                               VISN 9 Director Comments



               Department of
               Veterans Affairs                               Memorandum


       Date:            November 8, 2013

       From:            Director, VISN 9 (10N9)

       Subject:         CBOC Reviews at James H. Quillen VAMC

       To:              Director, Bay Pines Office of Healthcare Inspections (54SP)

                        Acting Director, Management Review Service (VHA 10AR
                        MRS OIG CAP CBOC)

       1. I concur with the findings and recommendations of this Office of
          Inspector General Community Based Outpatient Clinic Review of the
          James H. Quillen VA Medical Center, Mountain Home, Tennessee, as
          well as the action plan developed by the facility.

       2. If you have any questions or need additional information from the
          Network, please do not hesitate to contact Joe Schoeck, Staff
          Assistant to the Network Director, at 615-695-2205 or me at 615-695-
          2206.



       (original signed by:)

       John E. Patrick




VA OIG Office of Healthcare Inspections                                                  11
                                                     CBOC Reviews at James H. Quillen VAMC
                                                                               Appendix B
               James H. Quillen VAMC Director Comments



               Department of
               Veterans Affairs                             Memorandum


       Date:            November 6, 2013

       From:            Director (621/00), James H. Quillen VAMC

       Subject:         CBOC Reviews at James H. Quillen VAMC

       To:              Director, VISN 9 (10N9)

       1. On behalf of the James H. Quillen VA Medical Center, Mountain
          Home, Tennessee, I concur with the findings and recommendations of
          this Office of Inspector General report. We had already been actively
          working to improve or enhance these areas and welcome the “fresh
          eyes” perspective provided by this report.

       2. Included herein is an outline of	 improvement actions taken, in
          progress, or planned in response to these findings. We believe these
          changes will further enhance key systems and processes at our
          medical center.




       (original signed by:)

       Charlene S. Ehret, FACHE




VA OIG Office of Healthcare Inspections                                                12
                                                     CBOC Reviews at James H. Quillen VAMC


                               Comments to OIG’s Report

 The following Director’s comments are submitted in response to the recommendations
                                  in the OIG report:


OIG Recommendations

1. We recommended that managers ensure that patients are notified of cervical cancer
screening results within the defined timeframe and that notification is documented in the
EHR.

Concur

Target date for completion: January 1, 2014

The Women’s Health Program Manager (WHPM) is closely tracking each cervical
cancer screening results and monitoring notification. If a patient is not notified within
5-7 days with documentation in the electronic health record (EHR), a phone call is made
to the provider requesting notification of Veteran with follow-up. Ongoing monitoring will
occur by the WHPM and be reported at the Women’s Health Committee with target of
100 percent compliance.


2. We recommended that fire extinguisher signage is installed at the Morristown CBOC.

Concur

Target date for completion: November 15, 2013

The fire extinguisher signage was immediately ordered and has been received. It will be
installed the week of November 8, 2013, at the Morristown CBOC. The Fire Safety
Specialist will document inspection and provide validation of proper signage and
placement to the Chief, Quality Management.


3. We recommended that the facility ensures the exam tables are positioned so that
patient privacy is respected at the Rogersville CBOC.

Concur

Target date for completion: October 28, 2013

All three examination tables utilized at the Rogersville CBOC were reviewed for their
position to provide patient privacy. The three (100 percent) examination tables were
positioned properly to provide patient privacy. The Rogersville CBOC staff have been
re-educated on the requirement to ensure examination tables remain positioned to



VA OIG Office of Healthcare Inspections                                                13
                                                CBOC Reviews at James H. Quillen VAMC


provide patient privacy. The checking of proper placement of examination tables to
maintain patient privacy has been added to the CBOC Monthly Safety Checklist.




VA OIG Office of Healthcare Inspections                                           14
                                                      CBOC Reviews at James H. Quillen VAMC
                                                                                Appendix C


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite	                 Darlene Conde-Nadeau, MSN, ARNP, Team Leader
Contributors 	          Charles H. Cook, MHA
                        Karen McGoff-Yost, LCSW, MSW
                        Carol Torczon, MSN, ACNP
Other 	                 Shirley Carlile, BA
Contributors 	          Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Jackelinne Melendez, MPA
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                  15
                                                  CBOC Reviews at James H. Quillen VAMC
                                                                            Appendix D


                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VISN 9 (10N9)
Director, James H. Quillen VAMC (621/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Lamar Alexander, Bob Corker, Tim Kaine, Mark R. Warner
U.S. House of Representatives: John Duncan Jr., Morgan Griffith, David P. Roe


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                              16
